HHS/OIG, Audit -"Review of Nebraska Medicaid Payments for Services Provided to Deceased Recipients During the Period October 1, 1998 Through June 30, 2000,"(A-07-02-00145)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nebraska Medicaid Payments for Services Provided to Deceased
Recipients During the Period October 1, 1998 Through June 30, 2000," (A-07-02-00145)
May 1, 2003
Complete
Text of Report is available in PDF format (787 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the state paid claims
for deceased Medicaid recipients during the period of our review, and, if so,
to determine the amount of the unallowable payments.  To accomplish our
objective, we identified, using computer analysis, 1,140 claims totaling $72,311
that were potentially paid after the date of death.  Subsequently, we
requested the state review these claims and determine if they were unallowable.  After
reviewing the claims, the state confirmed that $16,229 (federal share $9,901)
involving 141 claims were unallowable.  Also, the state referred six recipients
with claims of $2,817 (federal share $1,722) to the states Surveillance and
Utilization Review (SURS) Unit because false Social Security numbers were used
to obtain eligibility for Medicaid.  The SURS has indicated they will
pursue all claims relating to these ineligible individuals.